Al£>

n°-J2o

- /Qof

3fo Qfye

Supreme Court of tje fHntteb S>tateo
THE CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Petitioner,
v.

Pharisees: DAVID B. COHEN, DAVID FRIEDMAN,
JUDITH J. GISCHE, BARBARA R. KAPNICK, TROY K.
WEBBER, ELLEN GESMER, SUSANNA MOLINA
ROJAS, MARCY L. KAHN, CYNTHIA S. KERN,
DONNA M. MILLS, ROSALYN H. RICHTER, PETER
TOM, JEFFREY K. OING, PETER H. MOULTON,
JOAN MADDEN, LIZBETH GONZALEZ, MARTIN
SHULMAN, NANCY M. BANNON, BARBARA JAFFE,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

BRIEF FOR PETITIONER
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St., Flushing, NY 11355
646-675-0308
Counsel for Petitioner

QUESTION(S) PRESENTED

The complaint of the plaintiff, -god's servant, Xiu
Jian Sun, the spiritual Adam respectfully shows and
alleges as follows
1. To fulfill Jehovah, - the Lord god of Hosts, god sent
the messenger said:" Pharisees don't even open
the door".
2. A Book of Doctrine and Covenants Section 101
81). Now, unto what shall I liken the children of Zion?
I will liken them unto the parable of the woman
and the unjust judge, for men ought always to
pray and not to faint, which saith—
82). There was in a city a judge which feared not God,
neither regarded man.
83). And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
84). And he would not for a while, but afterward he
said within himself: Though I fear not God, nor
regard man, yet because this widow troubleth me
I will avenge her, lest by her continual coming she
weary me.
85). Thus will I liken the children of Zion.

11

86). Let them importune at the feet of the judge:
87). And if he heed them not, let them importune at
the feet of the governor:
88). And if the governor heed them not, let them
importune at the feet of the president:
3.

Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, “Trial
with god's law. Apply for jury to prevent
insult and unfair behavior.”

Ill

LIST OF PARTIES

Petitioners:
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Respondents:
Pharisees:
David B. Cohen, David Friedman, Judith J. Gische,
Barbara R. Kapnick, Troy K. Webber, Ellen Gesmer,
Susanna Molina Rojas, Marcy L. Kahn, Cynthia S.
Kern, Donna M. Mills, Rosalyn H. Richter, Peter Tom,
Jeffrey K. Oing, Peter H. Moulton, Joan Madden,
Lizbeth Gonzalez, Martin Shulman, Nancy M. Bannon,
Barbara Jaffe,

IV

Apply for a Mandarin
Chinese interpreter

Clerk's Office:
I

(Servant) Petitioner would like to request a

Mandarin Chinese court interpreter for my appeal
court day.
Thank you.
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam

V

TABLE OF CONTENTS

Questions Presented

1

List of Parties

in

Apply for a Mandarin Chinese interpreter

IV

1

Jurisdiction

Constitutional and Statutory Provisions Involved .... 3
Statement of the Case

5

Reasons for Granting the Writ

6

Conclusion

7

INDEX TO APPENDICES
Appendix A:
United States Court of Appeals for the Second
Circuit: 21-435
21-435 Docket, General Docket

A1-A7

1
JURISDICTION
MANDATE
Case 21-435, Document 18, 04/13/2021, 3075905,
Pagel of 1
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT

At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 24th day of February,
two thousand and twenty-one,

Xiu Jian Sun, The Church of Jesus
Christ of Latter-Day Saints, Saints,
The Spiritual Adam,
ORDER
Petitioners,
Docket No. 21-435
v.
David B. Cohen, David Friedman,
Judith J. Gische, Barbara R. Kapnick,
Troy K. Webber, Ellen Gesmer,
Susanna Molina Rojas, Marcy L.
Kahn, Cynthia S. Kern, Donna M.
Mills, Rosalyn H. Richter, Peter Tom,
Jeffrey K. Oing, Peter H. Moulton,

2

Joan Madden, Lizbeth Gonzalez,
Martin Shulman, Nancy M. Bannon,
Barbara Jaffe,
Respondents.

On December 17, 2021 this Court entered an order
in Sun v. Dillon, 16-3557 requiring appellant to file a
motion seeking leave of this Court prior to filing any
future appeals.
A notice of appeal in the above referenced case was
filed. The Court has no record that appellant sought
the Court's permission to appeal prior to filing the
notice of appeal.
IT IS HEREBY ORDERED that this case is
dismissed effective March 17, 2021 unless a motion
seeking leave of this Court is filed by that date.
For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court
Catherine O'Hagan Wolfe
A True Copy
Catherine O’ Hagan Wolfe Clerk
United States Court of Appeals, Second Circuit
Catherine O’Hagan Wolfe

MANDATE ISSUED ON 04/13/2021

3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1. The Doctrine and Covenants Section 20
Revelation on Church organization and government,
given through Joseph Smith the Prophet, at or near
Fayette, New York. Portions of this revelation may
have been given as early as summer 1829. The
complete revelation, known at the time as the Articles
and Covenants, was likely recorded soon after April 6,
1830 (the day the Church was organized). The Prophet
wrote “We obtained of Him [Jesus Christ] the
following, by the spirit of prophecy and revelation;
which not only gave us much information, but also
pointed out to us the precise day upon which, according
to His will and commandment, we should proceed to
organize His Church once more here upon the earth.”
1). The rise of the Church of Christ in these last days,
being one thousand eight hundred and thirty years
since the coming of our Lord and Savior Jesus
Christ in the flesh, it being regularly organized and
established agreeable to the laws of our country, by
the will and commandments of God, in the fourth
month, and on the sixth day of the month which is
called April—
2. The Doctrine and Covenants Section 42
83). And thus ye shall do in all cases which shall come

4
before you.
84). And if a man or woman shall rob, he or she shall
be delivered up unto the law of the land.
85). And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
86). And if he or she shall he, he or she shall be
delivered up unto the law of the land.
87). And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
88). And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
89). And if he or she confess not thou shalt
deliver him or her up unto the church, not to the
members, but to the elders. And it shall be done in
a meeting, and that not before the world.
90). And if thy brother or sister offend many, he or she
shall be chastened before many.
91). And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.

5
STATEMENT OF THE CASE

1. The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, ‘unjust judge.’
2.

Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said:' Pharisees1 not even
move his one finger."
A—

1

Civil Docket for Case #: l:16-cv-01083- ENV-CLP, Court of Appeals Docket#:

2

Civil Docket for Case#: l:17-cv-1861-JDB, Court of Appeals Docket#: 18-5313.

16-950.

USCADC No. 18-5313

6

REASONS FOR GRANTING THE WRIT

After ruling by the Small Claim Court, these are
the works given by Israeli God from Lord’s temple,
“The civil magistrate should restrain crime, but never
control conscience, should punish guilt, but never
suppress the freedom of the soul.”

7
CONCLUSION

The Doctrine and Covenants Section 42
92. If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her
whom he or she has offended, and to God, that the
church may not speak reproachfully of him or her.
93. And thus shall ye conduct in all things.

Dated: Queens, New York
May 10, 2021
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
(646) 675-0308
Plaintiffs

